XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
600 WEST BROADWAY
SAN DIEGO, CA 92101

Telephone: (619) 738-9693
Facsimile: (619) 738-9000
E-Mail: Helen.Hong@doj.ca.gov

September 8, 2020
Via Electronic Filing System
Mr. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Anthony Bernard Smith, Jr. v. Davis
Case No. 20-5366
Request for Extension of Time

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on August 14, 2020. The
response to the petition is currently due on September 18, 2020. Pursuant to Rule 30.4,
respondent respectfully requests that the time for filing a response to the petition be extended by
thirty days, up to and including Monday, October 19, 2020. An extension of time would better
enable preparation of a response that respondent believes would be most helpful to the Court.
Counsel for the petitioner does not oppose.
Sincerely,

s/ Helen H. Hong
HELEN H. HONG
Deputy Solicitor General
For

XAVIER BECERRA
Attorney General

